Department of Homeland Security
   Ofﬁce of Inspector General


            The Special Immigrant Nonminister 

                Religious Worker Program 





OIG-09-79                                    June 2009
                                                            Office of Inspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 20528




                                     June 11, 2009

MEMORANDUM FOR:               Michael Aytes
                              Acting Deputy Director
                              United States Citizenship and Immigration Services


FROM:                         Richard L. Skinner
                              Inspector General

SUBJECT:                      Letter Report: The Special Immigrant Nonminister
                              Religious Worker Program (OIG-09-79)

As mandated in the Special Immigrant Nonminister Religious Worker Program Act, we
examined United States Citizenship and Immigration Services (USCIS) regulations,
published in November 2008, designed to decrease benefit fraud. We concluded that
USCIS has taken steps that can reasonably be expected to reduce fraud in special
immigrant nonminister petitions, but that it is not possible to determine the exact amount
of fraud reduction attributable to the new regulations.

Adjudicators find nonminister petitions challenging, but the regulation has provided
important tools, like an attestation requirement for petitioning organizations, to help
identify fraudulent cases. Adjudicators said that the new process provides effective fraud
deterrence.

USCIS managers said that more subtle fraud is expected to persist. We are making 5
recommendations to facilitate enhancements to the existing regulatory scheme. Should
you have any questions, please call me, or your staff may contact Carlton I. Mann,
Assistant Inspector General for Inspections, at (202) 254-4100.
Background

Congress amended the Immigration and Nationality Act in 1990, to create a special
immigrant status for ministers and nonministers in religious vocations and occupations.1
Special immigrant nonminister religious workers must have been members of the
denomination, and have worked in the capacity for which they are applying for at least
the two years immediately preceding the petition. Individuals who become special
immigrants are lawful permanent residents and will be eligible to apply for naturalization.
To qualify as a special immigrant, a petition (Form I-360) must be approved by USCIS.

Reducing benefit fraud, which is considered the willful misrepresentation of material
fact, has been a longstanding priority. In 2005, the USCIS Office of Fraud Detection and
National Security (FDNS) conducted a Benefit Fraud Assessment (BFA) of religious
worker immigrant petitions. After examining pending and completed special immigrant
religious worker cases, FDNS determined a 33% fraud rate existed. Nonexistent
organizations had filed a large number of petitions, and material misrepresentations were
common in documents submitted to establish eligibility.2

Following the BFA, FDNS instituted policy changes to enhance the integrity of the
religious worker program. Site visits to verify the existence of petitioning organizations
were implemented. USCIS also centralized adjudication of religious worker petitions at
the California Service Center (CSC) to ensure more consistent adjudications and
increased information sharing.

In April 2007, USCIS issued a proposed rule on Special Immigrant and Nonimmigrant
Religious Workers. After public comment, USCIS issued final regulations on November
26, 2008. The regulation:

        •	 Expanded the definitions of terms specific to the program;
        •	 Required petitioners to attest to a number of facts related to the organization
           and the work that the beneficiary would perform;
        •	 Created greater evidentiary requirements, including an IRS tax-exempt letter;
        •	 Mandated proof of qualifying work experience; and
        •	 Continued the use of site visits as a verification tool.

On October 10, 2008, Congress passed the Special Immigrant Nonminister Religious
Worker Program Act, which extended the nonminister program to March 6, 2009.3 The
extension was contingent on issuance of final regulations to reduce benefit fraud. The
Act mandated that we report on the effectiveness of the new regulations.




1
  Immigration Act of 1990; Public Law 101-649 (Nov. 29, 1990). 

2
  “Special Immigrant and Nonimmigrant Religious Workers (Proposed Rule).” Federal Register 72:79 

(April 25, 2007) p. 20442. 

3
  Public Law 110-391. 


                     The Special Immigrant Nonminister Religious Worker Program

                                                  1
Our fieldwork included interviews and file review at the CSC. We discussed religious
worker procedures with the six adjudicators who process I-360 petitions, supervisors, and
FDNS staff. We also examined 70 petition files and supporting documentation.

Fraud Reductions are Difficult to Quantify

Although prior to publication of the final regulations, data gathered in June 2008 for an
internal USCIS report concluded that site visits and centralized petition processing
contributed to a reduction in fraudulent religious worker petitions. This report noted that
special immigrant religious worker approval rates decreased from 67% in FY 2006 to
33% in FY 2007. Additionally, denial rates almost doubled, from 31% in FY 2006 to
60% in FY 2007. When considering voluntary petition withdrawals, non-approvals rose
from 32% in FY 2006 to 66% in FY 2007. USCIS also noted a 16% reduction in
received petitions during the time period. Petitions may be denied or withdrawn for
reasons other than fraud, but more stringent USCIS oversight is a major deterrent to
organizations intending to commit benefit fraud.

USCIS concluded, however, that it is difficult to quantify fraud reductions. Existing data
makes “no claim of direct causality” between reduced petition approvals and decreased
fraud. Rather, it is “possible that cyclical trends alone or in some combination of other
factors account for the changes observed.” While the data is strongly suggestive of fraud
reduction, further research is required to determine the effect of anti-fraud measures.

Although data used in the June 2008 report is consistent with other figures that USCIS
has reported, there were discrepancies between the figures and data that we requested.
The discrepant data also included FY 2008 and partial FY 2009 figures for petition
approval and denial rates. Given these discrepancies, we were hindered in our analysis of
fraud trends in the program. Because resolution of data issues would not change the
difficulty of quantifying exact fraud reductions, we did not pursue a complete USCIS
explanation of the data inconsistencies we discovered.

Although USCIS does track I-360 approvals as separate categories, I-360 denials are not
tracked as separate minister and nonminister totals in USCIS data systems. Given the
differential treatment of ministers and nonministers in the statute, and Congressional
concern regarding nonminister fraud, a method for tracking denials for both categories is
needed. CSC staff suggested this change to us.

Policy Changes can Enhance Anti-Fraud Efforts

USCIS has developed a credible process to deter and detect nonminister petition fraud.
All of the persons we interviewed praised the new process because it ensures more
legitimate petitions. Adjudicators and their supervisors noted that consolidation of I-360
petition review at the CSC, and improvements to the I-360 form, have created a more
efficient process to detect and deter fraud. The new I-360 attestation ensures that
petitions meet regulatory requirements. Petitioners must attest to 12 specific facts about
the organization and the work the beneficiary is to perform. Adjudicators said that the

                   The Special Immigrant Nonminister Religious Worker Program

                                               2
attestation easily presents key facts, supported through evidence, which expedites review
and allows for identification of missing information. We reviewed several files that
demonstrated how adjudicators used authorities in the regulations to request additional
information when petitions are incomplete. With petition processing in one location,
consultations between adjudicators improve the consistency and accuracy of decisions.

Inherent Difficulties with Nonminister Petitions

Adjudicators noted difficulties with special immigrant nonminister petitions. The
program requires full-time work for all religious workers, but some organizations have
difficulty documenting the full-time status of a beneficiary’s work. Other petitions did
not have evidence that demonstrated the religious nature of a nonminister’s work. Even
complete petitions can be difficult to evaluate. For example, religious painters and
sculptors are central to the faith of some denominations, while artists in other faiths are
secular workers. Adjudicators said that understanding such differences was an intricate
part of nonminister adjudications, especially because a denomination defines its own
acceptable religious occupations. This standard could become a means for organizations
to deem generally secular work as religious, or grant some faiths an advantage because of
different views of religious occupations.

In the proposed regulations, USCIS listed examples of nonminister occupations. During
the public comment period, concerns were expressed that the list favored Judeo-Christian
petitioners. In the final regulations USCIS removed the examples. As the agency gains
more experience dealing with petitions from various faiths, a list of occupations that are
traditionally religious should be developed, and updated as necessary. Such examples are
important for anti-fraud efforts because an FDNS manager said that religious worker
fraud is more subtle now compared to the years before site visits and the attestation
requirement. Future illegitimate activities are projected to include petitions for people
who do not do religious work, workers not performing stated duties, or organizations that
do not need full-time workers. Further guidance on regulatory definitions of religious
work would inform the public and ensure more complete petitions.

Differences Exist between Religious Occupations and Vocations

The regulation includes distinctions between religious vocations and occupations.
Workers in a religious vocation, such as nuns and monks, must have “a formal lifetime
commitment” through vows or similar means that demonstrate devotion to a religious
way of life distinct from the activities of “the secular members of the religion.”4
Individuals in an occupation must meet all of the following requirements:

      1.	 The duties must primarily relate to a traditional religious function and be 

          recognized as a religious occupation within the denomination; 

      2.	 The duties must be primarily related to, and must clearly involve, inculcating or
          carrying out the religious creed and beliefs of the denomination;

4
    8 C.F.R. § 204.5(m)(5).

                        The Special Immigrant Nonminister Religious Worker Program

                                                    3
       3.	 The duties are not in primarily administrative or support positions; and
       4.	 Religious study or training for religious work does not constitute a religious
           occupation, but a religious worker may pursue study or training incident to
           status.5

Individuals in a vocation, who are not required to meet these four standards, may do work
that is not traditionally religious. There were cases in our file review where a position
could not meet the entire religious occupation definition. These included musicians,
secretaries, administrative officers, and others engaged in generally secular activities.
However, a nun could work as the Hospitality and Home Economics Manager because of
the regulation’s definition of a vocation. Another petition was for a nun to engage in
cooking, cleaning, laundry, and shopping. Under the regulation, if the employment is
full-time, a religious worker with a vocation can get a petition approved for such a job.

Files we reviewed contained pending petitions for occupations that did not meet the full-
time and definitional tests. Examples included musicians with no other defined role, a
Sunday school director with primarily administrative duties, and petitions with a
significant amount of time for study or training. Instructions for the I-360 form and the
regulation list all definitional requirements of an occupation. Other documents
explaining the regulations simply state that the work must primarily relate to a traditional
religious function, just one of four parts of a permissible occupation. Revised fact sheets
or other materials, would provide more complete information to the public. This should
decrease the number of petitions received from organizations that will not be able to
provide beneficiaries employment that meets the requirements of a religious occupation.

Steps can be Taken to Ensure Religious Organizations’ Tax Exempt Status

Petitioning religious organizations must be “exempt from taxation as described in section
501(c)(3) of the Internal Revenue Code of 1986.”6 Petitions must include a “currently
valid” IRS exemption determination letter. However, USCIS has issued potentially
confusing statements about what constitutes a valid letter. Because the letters do not
expire, USCIS will accept determination letters regardless of date. However, while the
agency correctly notes that a letter revoked by the IRS cannot be used to meet the
regulatory requirement, any properly issued letter will always appear to be valid, even in
the few cases where IRS subsequently revokes the organization’s tax-exempt status. Of
45 new petition files we reviewed that had IRS letters, the average letter was twenty years
old, including five letters from the 1960s. An IRS expert we interviewed said that
organizations with letters that old could still be tax exempt. However, USCIS can issue
policy to ensure that all determination letters are currently valid.

Religious organizations rarely lose tax exempt status. The IRS neither re-evaluates
organizations after a letter is issued nor updates letters with the organization’s continued
tax exempt status. However, IRS Publication 78, Cumulative List of Organizations, is

5
    Ibid.
6
    Ibid.

                       The Special Immigrant Nonminister Religious Worker Program

                                                   4
available on-line. This tool, rather than 45-year old letters, is the best way to determine
the current tax exempt status of religious organizations. The IRS also produces a list of
organizations that have recently lost tax exempt status. USCIS stated that the agency
may consult Publication 78, but the current Adjudicator’s Field Manual does not require
use of updated IRS information to ensure an organization’s current status. This would be
useful, especially when a petitioner’s IRS letter had not been recently issued.

USCIS did not Adopt a Requirement that Petitioners Demonstrate a Need for Workers

USCIS originally proposed that petitioners be required to demonstrate that the worker
would “fulfill a reasonable need of the organization.” This language was not retained in
the final regulations. A USCIS expert informed us that the standard was vague, with an
implication that the government would become involved in the strategic employment
decisions of religious organizations. This is a legitimate concern. Additionally, the
regulations include compensation requirements and information in the attestation that
minimize the chance that an organization will petition for unneeded workers.

Our file review included petitions from organizations that seemed primarily concerned
with keeping beneficiaries in the United States, rather than documenting why the worker
was needed. An organization submitted one petition so that an individual “may be
eligible to permanently reside in the United States,” while another stressed the desire to
keep the worker in the United States without much detail about the work requirement.
Such cases can meet definitional requirements and be from legitimate organizations.
Nonetheless, the regulation is not currently able to identify organizations that establish
sinecure positions to gain permanent residency for unneeded staff. For marginal cases,
adjudicators could use a need requirement to gain further information about the proposed
work. USCIS should use ongoing data review to study the utility of a need-based
standard, but the legitimate concerns regarding inclusion of such a requirement in the
final regulation led us to not recommend a policy change in this area.

The Level of Interaction between Adjudicators and FDNS Can be Expanded

In addition to the regulatory process improvements described above, USCIS can make
procedural changes to the religious worker program. Interaction between adjudicators
and FDNS personnel primarily results from adjudicator requests for FDNS to conduct site
visits. Adjudicators said that such contact is generally limited to e-mail. FDNS staff we
interviewed reported limited interaction with adjudicators.

Results from site visits are an important component in adjudicators’ approval and denial
decisions. Given that the adjudicator relationship with most FDNS staff is remote,
adjudicators have felt too removed from the site visit process. Adjudicators do annotate
specific issues for FDNS to explore during site visits, but it is unclear whether FDNS
district office personnel receive the annotations. Increased communication would ensure
that adjudicator concerns about specific petitions are adequately conveyed to the field.



                   The Special Immigrant Nonminister Religious Worker Program

                                               5
Adjudicators would like to learn more about FDNS’ work process. Such knowledge
would give adjudicators greater understanding of petitioners and beneficiaries. Several
adjudicators suggested that they be allowed to periodically observe site visits.
Additionally, adjudicators signaled a desire for more dialogue with FDNS staff. Existing
roundtable discussions are a valuable tool for adjudicators and FDNS staff to share best
practices and exchange information. Both parties supported these discussions, but
lamented the infrequent nature of the roundtables.

Beneficiaries Warrant More Scrutiny in the Compliance Review Process

Because site visits were developed in response to concerns about petitioner fraud, the
process focuses on ensuring the credibility of the petitioning organization. April 2007
USCIS guidelines established that “[t]he primary focus of the site visit is on the
petitioner.” Although a focus on petitioner fraud is effective and laudable, site visits also
present opportunities to further scrutinize beneficiaries who are in the United States.

The BFA concluded that beneficiaries present a credible fraud risk. Although 44% of
cases demonstrated that an organization was illegitimate, 42% of cases included
misrepresentations of beneficiary qualifications. Given that the fraud of nonexistent
organizations has largely been addressed, a renewed focus on willful beneficiary
misrepresentation is warranted. We reviewed a site visit report suggesting revocation of
a worker’s status because secular administrative services were being performed under the
guise of a religious occupation. The organization argued that the individual did such
tasks because religious work did not require enough of the beneficiary’s time, a violation
of the regulatory language.

Expansion of beneficiary compliance does not discredit existing site visits. The
regulations do not limit site visits to the time before a beneficiary gains special immigrant
status. Ongoing monitoring can be a credible anti-fraud tool to ensure beneficiaries are
engaged in acceptable work described in the I-360. Current regulatory language focuses
the site visit process on the petitioner, but a beneficiary’s work is central to program
integrity. Given the imminent implementation of the Administrative Site Visit and
Verification Program, which will use contractors for initial site visits in 44 urban areas,
additional resources may be available to conduct post-status site visits.

Recommendations

We recommend that the Director of U.S. Citizenship and Immigration Services:

Recommendation #1: Develop a mechanism for separately tracking I-360 special
immigrant minister and nonminister petition denials.

Recommendation #2: Create or revise, and disseminate to the public, examples of
legitimate religious work and specific religious occupations that meet regulatory
definitions.


                    The Special Immigrant Nonminister Religious Worker Program

                                                6
Recommendation #3: Require adjudicators to consult the Internet version of Internal
Revenue Service Publication 78 and other IRS data on organizations that have lost tax
exempt status.

Recommendation #4: Expand the use of roundtables and other communication between
adjudicators and FDNS service center and district office personnel.

Recommendation #5: Expand site visit policies to verify beneficiaries’ regulatory
compliance after benefit issuance.

OIG Analysis of Management Comments

In its comments to our report, USCIS concurred with recommendations 1, 3, 4 and 5. It
provided specific plans to implement recommendations 1 and 3, which are therefore
resolved-open.

   o	 Compliance with recommendation 1 will have been accomplished once both the
      Form I-360 petition and the CLAIMS data system have been modified to facilitate
      separate tracking of minister and nonminister petition denials. We request that
      USCIS provide us with progress reports every 90 days.

   o	 Compliance with recommendation 3 will have been accomplished once
      appropriate revisions have been made to the National Standard Operating
      Procedures to suggest to adjudicators that they consult the online version of
      Internal Revenue Service Publication 78. We request that USCIS provide us with
      progress reports every 90 days.

Recommendation 4 suggested that the current communication between adjudicators and
FDNS personnel be expanded. While USCIS concurs, most of the information in its
response describes the status quo. Until we have a USCIS action plan, we cannot
consider recommendation 4 to be resolved. We request that USCIS provide us
information about specific service center and FDNS initiatives to expand formal and
informal communication.

Recommendation 5 suggested expansion of site visit policies to verify beneficiary
compliance after the religious worker status was granted to the beneficiary. Again, while
USCIS concurs with the recommendation, most of the information in its response
describes the status quo, and about the new Administrative Site Visit and Verification
Program (ASVVP). While there are indeed contractual considerations to using ASVVP
visits as a broader anti-fraud tool, the new program will free some or all of the FDNS
resources currently devoted to routine site visits. Until USCIS provides an action plan,
we cannot resolve recommendation 5. We request that USCIS provide us information
about specific plans to broaden petitioner site visits to include some beneficiary
verification.



                   The Special Immigrant Nonminister Religious Worker Program

                                               7
USCIS did not concur with recommendation 2, and pointed out that the proposed list of
examples was omitted from the final rule due to public comments USCIS received during
the proposed rulemaking process. USCIS said in its comments to our draft report that
such a list can create confusion about the scope of the definition of "religious
occupation," and that examples of religious occupations would not serve any anti-fraud
efforts as the denomination must still define its own acceptable religious occupations.
The burden of proof rests with the petitioner to establish that the occupation relates
primarily to a traditional religious occupation within the denomination. We are
persuaded by the USCIS explanation. Recommendation 2 is closed and no further action
is required.




                  The Special Immigrant Nonminister Religious Worker Program

                                              8
Appendix A
Purpose, Scope, and Methodology


      Our review was undertaken to comply with Public Law 110-391, Section 2,
      paragraph (c), which mandated that we report on the effectiveness of measures
      recently implemented by USCIS to eliminate or reduce fraud in the special
      immigrant nonminister religious worker visa category. The new measures were
      published on November 26, 2008 (Federal Register 73:229, p. 72276).

      We interviewed managers at USCIS headquarters responsible for overseeing
      religious worker petition verification and adjudication; managers and adjudicators
      at the USCIS California Service Center, which processes religious worker
      petitions; and immigration officers that conduct on-site inspections to obtain their
      professional assessment of the impact the regulations have had on eliminating or
      reducing fraud. We discussed rules for tax-exempt religious organizations with a
      subject matter expert at the Internal Revenue Service. We also reviewed USCIS
      data and case records. Our fieldwork took between March – May, 2009. We
      conducted our inspection under the authority of the Inspector General Act of
      1978, as amended, and according to the inspection standards of the Council of
      Inspectors General on Integrity and Efficiency.




                  The Special Immigrant Nonminister Religious Worker Program

                                              9
Appendix B
Management Comments to the Draft Letter Report




                The Special Immigrant Nonminister Religious Worker Program

                                           10
Appendix B
Management Comments to the Draft Letter Report




                The Special Immigrant Nonminister Religious Worker Program

                                           11
Appendix B
Management Comments to the Draft Letter Report




                The Special Immigrant Nonminister Religious Worker Program

                                           12
Appendix C
Major Contributors to This Report


                   Douglas Ellice, Chief Inspector

                   Darin Wipperman, Senior Inspector

                   Jordan Brafman, Inspector




                The Special Immigrant Nonminister Religious Worker Program

                                           13
Appendix D
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      Deputy Chiefs of Staff
                      Acting General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      USCIS Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                 The Special Immigrant Nonminister Religious Worker Program

                                            14
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
